         OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Evaluation Report



       Measuring the Impact of the
       Food Quality Protection Act:
       Challenges and Opportunities
       Report No. 2006-P-00028


       August 1, 2006
Report Contributors:	               Jerri Dorsey
                                    Gabby Fekete
                                    Alice Fong
                                    Jeffrey Harris




Abbreviations

EPA            U.S. Environmental Protection Agency
FQPA           Food Quality Protection Act
GAO            Government Accountability Office
OIG            Office of Inspector General
OPP            Office of Pesticide Programs
USDA           U.S. Department of Agriculture




Cover photo:      The Food Quality Protection Act emphasizes the need to protect children
                  from pesticides (EPA OIG photo).
                         U.S. Environmental Protection Agency                                               2006-P-00028

                         Office of Inspector General                                                       August 1, 2006





                         At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review               Measuring the Impact of the Food Quality
We initiated this review to          Protection Act: Challenges and Opportunities
determine the ability of the
U.S. Environmental Protection         What We Found
Agency’s (EPA’s) Office of
Pesticide Programs (OPP) to          Although EPA has made progress in implementing the requirements of the FQPA,
measure its performance in           we found that OPP has primarily measured its success and the impact of FQPA by
meeting the mandates of the          adherence to its reregistration schedule rather than by reductions in risk to
Food Quality Protection Act          children’s health. The measures used by OPP generally indicate actions taken,
(FQPA). We sought to                 instead of environmental or human health outcomes achieved. OPP lacks outcome
determine the strengths and
                                     measures to assess the specific impact of those actions on the health of children
weaknesses of OPP’s current
measuring system, how OPP            and others. OPP has recently taken steps to develop outcome measures, but
can use existing data to             significant challenges remain.
measure, and what impact
FQPA had on mitigating               By integrating existing data into a suite of performance measures, OPP can better
dietary pesticide exposure risk      track the effectiveness of regulatory decisions and program performance. We
on children’s health. This is        identified several pools of quantitative data available for use as a suite of
the third in a series of three       performance indicators, but coordination efforts will be needed. OPP can better
reports on FQPA.                     utilize a number of data and measurement sources, including the National Health
                                     and Nutrition Examination Survey and the U.S. Department of Agriculture’s
Background                           Pesticide Data Program, to track health-based indicators of children’s health risks.
The goal of EPA’s pesticide
                                     EPA can measure the impact of FQPA on children’s health more efficiently
program is to protect public
                                     through the examination of pesticide exposure data, and changes in usage patterns,
health and the environment by
ensuring pesticides are used         substitutions, and import trends. We used the U.S. Department of Agriculture’s
safely. FQPA changed the             Pesticide Data Program data to illustrate dietary risk changes since the passage of
way OPP regulates pesticides         FQPA in toxicity risks on the foods commonly consumed by children.
and emphasizes protecting
children’s health.                    What We Recommend

For further information,             We recommend that OPP work to move away from primarily using outputs as
contact our Office of                performance measures, and implement a suite of output and outcome measures to
Congressional and Public
Liaison at (202) 566-2391.
                                     assess the human health and environmental impacts of its work. We also
                                     recommend that OPP pursue revision of EPA’s goal structure as appropriate, and
To view the full report,             work with other EPA program offices and other Federal agencies to obtain needed
click on the following link:         data. EPA generally agreed with the recommendations, and expressed its
www.epa.gov/oig/reports/2006/        appreciation for our findings. We made changes where appropriate.
20060801-2006-P-00028.pdf

To view a supplemental report
with additional details, click on:
www.epa.gov/oig/reports/2006/
20060801-2006-P-00028A.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL





                                          August 1, 2006

MEMORANDUM

SUBJECT:               Measuring the Impact of the Food Quality Protection Act:
                       Challenges and Opportunities
                       Report No. 2006-P-00028

TO:                    Jim Jones
                       Director, Office of Pesticide Programs

                       Lyons Gray
                       Chief Financial Officer


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $227,099.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.
If you or your staff has any questions, please contact me at (202) 566-0847 or
roderick.bill@epa.gov, or Jeffrey Harris, Product Line Director for Cross Media Issues,
at (202) 566-0831 or harris.jeffrey@epa.gov.


                                            Sincerely,



                                            Bill A. Roderick
                                            Acting Inspector General


cc:    J	 ames B. Gulliford
       Assistant Administrator, Office of Prevention, Pesticides, and Toxic Substances
     Measuring the Impact of the Food Quality Protection Act: Challenges and Opportunities



                                    Table of Contents

Chapters
 1     Introduction ..............................................................................................................      1

               Purpose .............................................................................................................    1     

               Background .......................................................................................................       1     

               Scope and Methodology....................................................................................                2

               Prior Reviews ....................................................................................................       3

               Results of Review..............................................................................................          4


 2     Improvements Needed in OPP’s Measurement System .......................................                                          5

               OPP’s Current Measurement System Focuses on Outputs ..............................                                       5

               Outcome Measures under Development...........................................................                            7

               OPP Faces Challenges in Creating Effective Performance Measures………...                                                    7

               FQPA Logic Model Can Improve Performance Measuring ...............................                                       8

               EPA Should Consider Revising Goal Structure.................................................                            10 

               Recommendations ............................................................................................            11     

               Agency Response and OIG Evaluation.......................................................... ...                        11 


 3     Suite of Performance Measures Can Help OPP Better Measure Impact.............                                                   12     

               Using a Suite of Performance Measures Can Help OPP Track Progress.........                                              12 

               Five Examples Demonstrate Use of Suite Approach ........................................                                15 

               Recommendation ..............................................................................................           16     

               Agency Response and OIG Evaluation.......................................................... ...                        16 


 4     OPP Decisions on Pesticide Dietary Exposure Risk Had Positive Impact .........                                                  17     

               FQPA Actions Decreased Dietary Pesticide Risks to Children .........................                                    17 

               Reduced Risk Attributable to Two Major EPA Actions ......................................                               19 

               Method Could Help OPP ...................................................................................               21 

               Recommendation ..............................................................................................           22     

               Agency Response and OIG Evaluation.......................................................... ...                        22 


 Status of Recommendations and Potential Monetary Benefits.................................                                            23     



Appendix
 A       Agency Response .................................................................................................             24     

 B       OPP’s Proposed Goal-Related Measures ...........................................................                              30     

 C       Distribution ............................................................................................................     31

                                Chapter 1
                                 Introduction

Purpose
          We initiated this review to evaluate the U.S. Environmental Protection Agency’s
          (EPA’s) activities to implement the Food Quality Protection Act (FQPA) of 1996.
          Our overall objective was to determine the impact of FQPA on Agency practices,
          data requirements, and children’s health. The primary goal of FQPA is to protect
          children and infants from pesticide exposures. In this report, our primary
          objective was to evaluate the effectiveness of EPA’s Office of Pesticide Programs
          (OPP) in measuring the overall impact of FQPA implementation activities. We
          specifically sought to determine:

             x   What are the strengths and weaknesses of OPP’s current measurement
                 system in tracking FQPA objectives, and how could it be improved, if
                 necessary?

             x   What existing data can OPP use to assess its performance under FQPA
                 and measure the impact of its regulatory actions?

             x   What impact did FQPA have on mitigating dietary pesticide exposure risk
                 and on children’s health?

Background
          Congress unanimously passed the FQPA in 1996, due in large part to a 1993
          National Academy of Sciences report, Pesticides in the Diets of Infants and
          Children. According to this report, the then-current scientific and regulatory
          approaches did not adequately protect infants and children from pesticides.
          Children are uniquely susceptible to the health threats posed by pesticides, in both
          household chemicals and food. Children generally consume more fresh produce
          and drink more water per pound of body weight than adults. Additionally, a
          child’s exposure to pesticides can occur as early as the prenatal phase, or during
          infancy through breast-feeding. Children have higher rates of metabolism, less
          mature immune systems, unique diets, and distinct patterns of activity and
          behavior when compared with adults.

          The Government Performance and Results Act of 1993 requires Federal agencies,
          including EPA, to prepare performance plans containing annual performance
          goals and measures to help move them toward managing for results. Performance
          measurement is the monitoring and reporting of program accomplishments,
          particularly progress toward pre-established goals. Performance measures may


                                           1

         address the type of program activities conducted, the direct products and services
         delivered by a program (outputs), and the results of those products and services
         (outcomes). Effective performance measurement enables an agency to establish
         baselines; identify and prioritize problems; and evaluate, manage, and improve
         programs. Table 1.1 further defines performance measurement terms.

         Table 1.1: Performance Measurement Terminology
              Term                                         Definition
          Inputs           Personnel, funds, and other resources that contribute to an activity
          Outputs          Quantitative or qualitative measures of activities, work products, or
                           actions
          Intermediate     Changes in knowledge, behavior, or conditions that result from
          Outcomes         program activities and are needed to achieve the end outcome
          End              The ultimate outcomes of program activities – the results compared
          Outcomes         to their intended purpose



         EPA’s strategic plan outlines the Agency’s five long-term goals and guides in
         establishing the annual goals that must be met along the way. To fulfill its five
         strategic goals, the plan includes a series of more specific goals in the form of
         objectives and sub-objectives. Each of these objectives has associated
         performance measures designed to demonstrate progress in achieving the
         objective and, eventually, the strategic goal. The annual performance plan defines
         the Agency’s budget and associated goals and objectives in greater detail and ties
         the annual budget to the 5-year strategic plan.

         The mission of OPP is to protect human health and safeguard the environment
         from unreasonable adverse effects resulting from the use of pesticides. OPP is
         responsible in part for implementing the FQPA. To successfully implement
         FQPA, OPP needs to use new tools to reduce pesticide exposures and resultant
         risks for children. OPP is responsible for using performance measures and goals
         to assess the impact of its actions.

Scope and Methodology
         We generally performed our evaluation in accordance with Government
         Auditing Standards, issued by the Comptroller General of the United States.
         We performed our field work from July 2005 through January 2006.

         To determine the strengths and weaknesses of OPP’s current FQPA-related
         measurement system, we reviewed internal OPP documents, EPA Office of the
         Chief Financial Officer reports and plans, and Office of Management and Budget
         documents. We reviewed EPA’s 2003 – 2008 Strategic Plan: Direction for the
         Future, fiscal 2004 and 2005 annual performance plans, and the Agency’s fiscal
         2004 and 2005 annual reports. We interviewed internal program staff, and



                                           2

                 internal and external stakeholders. We reviewed reports issued by the
                 Government Accountability Office (GAO). We reviewed Florida State
                 University’s Program for Environmental Policy and Planning Systems’ Chemical
                 and Pesticide Results Measures project, a cooperative agreement with OPP, and
                 interviewed the author of a report prepared as a result of the project. We also
                 interviewed other members of academia.

                 To determine what additional data sources and measures OPP could use and other
                 ways it can use existing data sources, we consulted the U.S. Department of
                 Agriculture, U.S. Department of Health and Human Services, Office of
                 Management and Budget, and EPA’s Office of the Chief Financial Officer.

                 In assessing the overall impact of OPP’s actions on children’s health, we
                 interviewed internal program staff, and internal and external stakeholders, to
                 identify measures, additional data, and trends in children’s health. We reviewed
                 other entities’ research on potential human health indicators related to pesticide
                 exposures, dietary risk, and reductions in risk due to EPA action. We conducted
                 an analysis of publicly available toxicological and residue data supporting EPA
                 dietary risk assessments to assess the impact of FQPA on dietary pesticide risks
                 from 1994 through 2003.1 A detailed discussion of the methodology for this
                 analysis, which can be used by OPP to perform its own analyses, is in a
                 supplemental report.

                 Our review focused on existing data and interviews, and we did not examine
                 internal controls. We evaluated OPP’s compliance with the Government
                 Performance and Results Act, FQPA, and other regulations as appropriate.

Prior Reviews
                 This report is the last in a series of three EPA Office of Inspector General (OIG)
                 reports on the Agency’s FQPA implementation efforts. The prior two reports are:

                     x	 EPA OIG Report No. 2006-P-00009, Opportunities to Improve Data
                        Quality and Children’s Health through the Food Quality Protection Act,
                        January 10, 2006
                     x EPA OIG Report No. 2006-P-00003, Changes Needed to Improve Public
                        Confidence in EPA’s Implementation of the Food Quality Protection Act,
                        October 19, 2005


                 In addition, we reviewed the following GAO reports that addressed performance
                 measures:



1
 Some of the analysis work was conducted through a contract with Benbrook Consulting Services, Sandpoint,
Idaho.


                                                      3

              x	 GAO-05-52, Environmental Indicators: Better Coordination Is Needed to
                 Develop Environmental Indicator Sets That Inform Decisions,
                 November 17, 2004
              x GAO-02-372, Performance Reporting: Few Agencies Reported on the
                 Completeness and Reliability of Performance Data, April 26, 2002
              x GAO Letter Report B-285312, Managing for Results: Assessing the
                 Quality of Program Performance Data, May 25, 2000
              x GAO/RCED-00-77, Managing for Results: EPA Faces Challenges in
                 Developing Results-Oriented Performance Goals and Measures,
                 April 2000

          Further, we reviewed a report issued by the Florida State University’s Program
          for Environmental Policy and Planning Systems in February 2003, Chemical and
          Pesticide Results Measures II. The report was based on a joint effort by EPA and
          the university to develop a national set of chemical, pesticide, and pollution
          prevention indicators to describe and understand environmental trends and
          conditions concerning chemical and pesticide issues.

          We also reviewed reports issued by the Office of Management and Budget on its
          Program Assessment Rating Tool assessments of EPA. The Office gave OPP’s
          pesticide registration and reregistration programs “results not demonstrated”
          ratings in fiscal 2003, but improved the rating for the registration program to
          “adequate” in fiscal 2004.

Results of Review
          OPP needs to move to a better mix of output and outcome measures to assess its
          performance in achieving FQPA’s mandate of protecting children from pesticide
          exposure risks. Although EPA has made progress implementing the requirements
          of FQPA, we found that OPP has primarily measured its success and the impact
          of FQPA by adherence to its reregistration schedule rather than by improvements
          in children’s health. While OPP has recently taken steps to develop more
          outcome measures, significant challenges remain. We identified opportunities for
          OPP to utilize existing data in different ways to track the effectiveness of its
          pesticide regulatory decisions and program performance. We conducted an
          analysis of the dietary pesticide residue data from the U.S. Department of
          Agriculture’s Pesticide Data Program and found that EPA’s regulatory actions
          had a significant impact in reducing pesticide exposure risk on domestic foods
          commonly eaten by children. The Agency concurred with our recommendations.
          We summarized the comments and provided our evaluations at the end of each
          chapter. The full text of EPA’s memorandum and comments is in Appendix A.




                                          4

                                Chapter 2
Improvements Needed in OPP’s Measurement System

         OPP launched an internal workgroup in May 2005 to develop better measures, but
         none of the proposed measures have been implemented. OPP faces a number of
         challenges in creating effective measures, including: the complexity of
         environmental problems, external factors, cost, and an historical reliance on
         output measures. Since 1996, OPP has tracked success in meeting statutory
         deadlines and progress toward mandated FQPA goals. FQPA required OPP to
         complete the reassessment of all 9,721 food-related pesticide tolerances by
         August 2006. While important and required, these output measures, which
         comprise the majority of OPP’s performance measurement system, do not
         measure impact. Because it lacks measures on the impact of actions on the health
         of infants, children, and the overall human population, OPP cannot state the
         impact of its FQPA efforts. Several opportunities for OPP to improve
         performance measurement are discussed in this chapter and Chapters 3 and 4.

OPP’s Current Measurement System Focuses on Outputs
         A good performance measurement and reporting system ensures transparency and
         holds an organization accountable. OPP adopted transparency and accountability
         as goals, and further noted that accountability is paramount to the development of
         effective performance measures.
         OPP uses the graphic in Figure 2.1 Figure 2.1: Performance Measures for Accountability
         to illustrate its view on the
         importance of performance
                                                                     Strategic
         measures as accountability tools                 Reports Plan         OMB
         for a number of purposes. The                    to
                                                                               Part
                                                          Congress
         measures ensure that OPP provides                                       Budget
         stakeholders and the Agency with a        Performance
         cohesive display of the program.          Accountability Performance Operating Plan
                                                   Reports          Measures
         OPP intends to use performance                                          Office-wide
                                                                                 Work Plans
         measures in most if not all of the         Employee     ACCOUNTABILITY
                                                    Standards
         areas indicated in the figure. OPP         – PARS      Guidance Guidance to
         uses performance measures as part                      to States    Regions
         of EPA’s strategic planning. In the                    and
                                                                Tribes
         Agency’s overall structure, OPP’s
         FQPA-related work falls under
         Goal 4: Healthy Communities and
                                                                   Source: OPP
         Ecosystems.

         Output measures were important to OPP during FQPA implementation in terms of
         meeting congressionally mandated deadlines and timeframes. While output


                                           5

                 measures are needed, they comprised all but two of OPP’s performance measures
                 in the Fiscal Year 2005 annual report. The lack of outcome-based measures
                 impedes OPP’s ability to assess the impact of its actions.

                 For Fiscal Year 2005, OPP used the following output measures to assess
                 programs:

                 	 Cumulative number of safer chemicals/biopesticides registered.
                 	 Cumulative percentage of the 9,721 tolerances required to be reassessed over
                    10 years that have already been reassessed.
                 	 Cumulative number of new uses.
                 	 Number of inert ingredients in pesticide products reregistered.
                 	 Cumulative number of new chemicals registered.
                 	 Cumulative percentage of Reregistration Eligibility Decisions completed.
                 	 Percentage of tolerance reassessments issued for the “Top 20” foods eaten by
                    children.
                 	 Children’s exposure data and tools for assessing aggregate exposure to
                    residential use pesticides.
                 	 Number of product reregistrations.

                 One of the strengths of OPP’s current output measures is that the majority are
                 based on actual counts, not on modeling or predictions. Staff can easily collect,
                 compute and analyze the data. However, one of the major weaknesses is that OPP
                 staff and other data users cannot draw conclusions, trends, or significant analyses
                 from the measures about the impact of actions. While output measures are
                 important as an internal program management tool, their value in illustrating
                 actual programmatic success and impact is severely limited. Counts of
                 registration and reregistration numbers alone do not provide evidence that
                 children’s health benefited from a reduction in pesticide exposure risk.

                 OPP’s two outcome-based measures for FY 2005 were:

                 1.	 The reduction of detections on a core set of 19 foods eaten by children relative
                     to detection levels for those foods reported in 1994-1996; and
                 2.	 The percentage of acre treatments with reduced risk pesticides.

                 Both were low-level outcomes in the hierarchy of measures,2 but nonetheless
                 provided a clearer picture to OPP of the impact of its FQPA-related actions than
                 the output structure.



2
  Performance measures can be categorized along a “hierarchy” of measures. Levels 1 and 2 measure administrative
actions and program activities (outputs), while levels 3 through 5 represent intermediate outcomes and level 6
represents long-term outcomes. As the measures progress from levels 3 to 6, the association of the indicator to
environmental outcomes strengthens. While level 6 outcomes are important, they are less feasible for measurement
than levels 3 through 5.


                                                       6

          OPP staff said the greatest outcome from implementing FQPA is the reduction in
          household poisonings. By removing household uses of many toxic pesticides,
          OPP reduced the potential for children’s exposure to those pesticides. However,
          OPP does not have measures to show reduction in household poisonings or use
          patterns. In its 2004 annual report, OPP cited two success stories that lacked
          measures with which to capture their impact. One involved the elimination of a
          product (thiram) from almost all residential uses. OPP also noted that EPA
          pesticide reregistration decisions in response to FQPA resulted in removal of
          15 million to 20 million pounds of organophosphates from use in and around
          homes annually. These successes, however, cannot be inferred by the general
          public and stakeholders from any of OPP’s performance measures.

Outcome Measures under Development
          In May 2005, OPP established an internal workgroup to develop results indicators
          for its program as a whole. OPP has had one full time person working on
          performance measures since the inception of the workgroup, but other staff
          members have devoted significant amounts of time in developing the initiative.
          The workgroup has proposed measures (see Appendix B), but these measures
          have not yet been implemented. Under this performance measurement project,
          OPP has identified the following overall strategic measures for reducing risk to
          the general public:

          	 Reduce the number of acute poisoning incidents from pesticides in and around
             the home.
          	 Reduce the level of currently registered pesticides in the general population.
          	 Reduce pesticide residues in the 20 foods most commonly eaten by children
             using Pesticide Data Program residue data.

OPP Faces Challenges in Creating Effective Performance Measures
          OPP faces a number of challenges in creating effective, outcome-based
          performance measures. These include: the complexity of environmental
          problems, external factors, data housed in other Federal agencies, the expense of
          collecting new human health data, and the historical reliance of the organization
          on output-based measures.

          OPP, like EPA as a whole, faces significant performance measurement challenges
          related to environmental problems. Data on environmental conditions and health
          effects of pollutants are limited. Further, there are difficulties in linking a
          program’s activities and the resulting changes in the environment. Numerous
          factors beyond EPA’s control, such as technological change and socioeconomic
          factors, play a role. Although EPA has volumes of data on individual pesticides,
          OPP is often prohibited from releasing it due to confidential business information.




                                           7

         OPP needs to obtain a great deal of its data from other Federal agencies, and thus
         is reliant on the type of data those other agencies collect. The U.S. Department of
         Agriculture (USDA) provides data on food consumption, food commodity, and
         pesticide residue through such databases as the Food Commodity Intake
         Database. FQPA contains specific provisions for cooperative activities between
         EPA and USDA. Since 1999, USDA integrated its food intake survey with
         another large survey – the National Health and Nutrition Examination Survey –
         conducted by the U.S. Department of Health and Human Services. The main data
         source for dietary residues is the monitoring study conducted by the Pesticide
         Data Program at the USDA Agricultural Marketing Service. This program has
         generated extensive pesticide residue data on over 50 foods eaten daily, including
         data on pesticide residues in fruits, vegetables, grains, dairy products, and meats.
         OPP recognizes that it can obtain valuable data from such sources as the National
         Health and Nutrition and Examination Survey and Pesticide Data Program, and it
         needs to maximize its opportunities to obtain and use this information.

         OPP’s mission is not one of zero risk or zero exposure, which makes it difficult to
         set ambitious, aggressive goals. This is compounded by the legality of pesticides;
         they are not “end of the pipe” pollution, but substances legally in the
         environment. OPP must balance its dual mission of providing a gateway to the
         marketplace for pesticide products with the protection of the public from harmful
         pesticide exposures. Further, determining attribution for changes in pesticide
         residue in humans as a result of EPA actions taken is problematic.

FQPA Logic Model Can Improve Performance Measuring
         Logic models and performance indicators are tools to provide better performance
         measures and, thus, program management decision making. Our prior January
         10, 2006 FQPA report (2006-P-00009) addressed how logic models distinguish
         outputs and outcomes in program design. OPP developed logic models for
         individual programs during its current performance measurement initiative, but
         did not develop a logic model for the pesticide program as a whole.

         The logic model in Figure 2.2, prepared by the EPA OIG, provides an overarching
         picture of OPP’s FQPA-related activities and potential outcomes. Those
         measures, activities, and resources in orange boxes are currently used by OPP.
         Those in green boxes are proposed and/or prospective measures. Some of the
         measures are proposed by OPP (shown in Appendix B); others come from
         literature related to pesticide performance measurement. The logic model
         illustrates the potential flow from activities through long-term outcomes from
         OPP actions.




                                          8

Figure 2.2: Logic Model on FQPA Implementation and Children’s Pesticide Exposure Health Risk Mitigation
                                                                         Outputs
         Resources              Activities                        Level 1 & 2 Indicators                        Immediate Outcomes             Intermediate Outcomes                  Long-Term Outcomes
                                                                                                                 Level 3 Indicators            Level 4 and 5 Indicators                Level 6 Indicators


           OPP              Risk Assessments              Cumulative number safer chemicals/                   Percentage of acre-          Percentage reduction in children with         Percentage
      Risk Assessors                                     biopesticides registered                             treatments with reduced      detectable pesticide levels in the body       reduction in levels
      Risk Managers        Risk Management                                                                    risk pesticides                                                            of currently
                            Decisions                     Cumulative percentage of the 9721 tolerances                                      Percentage reduction in pesticide
      EPA Offices                                                                                                                                                                        registered
                                                          required to be reassessed over ten years             Percentage of occurrences    concentrations in environmental
      External
                                                          reassessed                                           of residues on a core of     media                                         pesticides found
       Stakeholders         Exposures Research
                                                                                                               19 foods eaten by children                                                 in children
       (USDA,CDC,           & Toxicity Testing                                                                                              95th percentile blood and urine
       FDA)                                               Cumulative number of new uses                        relative to occurrence       concentration levels for biomarkers           Percentage
                            Data collection on                                                                 levels for those foods       of exposure to pesticides
                                                          Number of inerts reregistered                        reported in 1994-1996                                                      reductions in the
                            Children’s Food                                                                                                                                               level of currently
                            Intake & Activities                                                                                             Percentage reduction in children‘s
                                                          Cumulative number new chemicals registered                                        systemic poisoning incidences at              registered
                                                                                                                                            homes, schools or public places               pesticides in the
                            Food Pesticide                Cumulative percentage of Reregistration             Percentage increased                                                        general population
                            Residue Testing               Eligibility Decisions (REDs) completed              market shares of reduced      Percentage reduction in foods
                                                                                                              risk pesticides               sampled with detectable pesticide             Percentage
                            Strategic Planning            Percentage tolerance reassessments                                                residues                                      reduction in
                                                          completed for the Top 20 foods eaten by             Percentage of crops and/or
                                                                                                                                            Percentage reduction in foods                 vector borne
                            Chemical                      children                                            acres in transition to
                                                                                                                                            sampled with pesticide residues that          disease in children
                            Nominations for                                                                   Integrated Pest
                            Biomonitoring                 Number of assays standardized and validated         Management and                violated or were presumed to violate
                                                                                                                                            tolerances                                    Improvements in
                                                                                                              reduced-risk pesticides
                                                                                                                                                                                          children’s and
                            Development of                Children’s exposure data and tools for
                                                                                                              Average toxicity of           Incidence of pesticide-related                public health
                            work plans                    assessing aggregate exposure to residential
                                                                                                              pesticide active ingredient   poisonings and illnesses in pesticide
                                                          use pesticides
                                                                                                              applied per acre              workers                                       Production of
                            Outreach and                                                                                                                                                  safer pesticidal
                            communication                 Efficiency: Reduction in decision times for         Number of agricultural        Number of non-occupational
                                                          reduced risk chemicals, new conventional                                                                                        chemicals
                                                                                                              acres treated with            pesticide-related poisoning and
                                                                                                              biopesticides                 illness                                       Percentage
                                                          Product reregistrations
                                                                                                              Annual pesticide use on       Reduce the number of acute                    reduction in
                                                                                                              select field crops by         poisoning incidents from pesticides in        pathologies in
                                                                                                              pesticide product signal      and around the house                          children caused by
                                                                                                              word                                                                        pesticide exposure
                                                                                                                                            Percentage risk reduction to children
           Number of public awareness campaigns about pesticide hazards and safe application and use;         U.S. annual volume of         from:
                                                                                                              pesticide usage by type of    ¾ Pesticides in ambient air
           Amount of public and professional education about symptoms of low-level pesticide
                                                                                                              active ingredient             ¾ Pesticide residues in drinking
           exposure;
                                                                                                                                               water and in food
           Number of jurisdictions in which “organic” foods are available                                                                   ¾ Pesticide used in the home




                                                                                                         Customers
             Congress, Office of Management and Budget, internal stakeholders, other federal agencies, State/Tribal environmental agencies, universities/academic institutions,
             nonprofit research institutions, industry, agri-community, nongovernmental environmental groups, and public health professionals


OIG staff developed this logic model based on data collected for this evaluation.




                                                                                                        9

EPA Should Consider Revising Goal Structure
          The structure of EPA’s Goal 4 is currently not set up to accomplish or measure
          human health or environmental outcomes. OPP has the potential to measure
          ambient conditions, body burdens, quantities and toxicities of pesticides sold, and
          residue levels, but cannot currently tell the public anything about these elements
          because the current goal structure does not reflect the fact this is part of its
          mission. OPP said that the existing structure is highly output-oriented, and does
          not correlate well with OPP's three major mission areas (see Figure 2.3).

          OPP has proposed a new goal structure for its portion of Goal 4 that outlines
          changes for three major mission areas – human health, the environment, and other
          benefits – as shown in Figure 2.3:

          Figure 2.3: Existing and Proposed Goal 4 Structure for EPA Strategic Architecture
                                Goal 4: Healthy communities and ecosystems
                         Existing Structure                     Proposed Structure
           4.1 Chemical, organism, and pesticide            4.2.1 Protect human health from
           risks                                            pesticide risk
           4.1.1 Reduce exposure to toxic                   4.2.2 Protect the environment from
           pesticides                                       pesticide risk
           4.1.2 License pesticides meeting safety          4.2.3 Realize the benefits from pesticide
           standards                                        use
          OIG staff developed figure based on data collected during evaluation.

          The proposed strategic plan structure is more outcome-oriented, and better
          addresses OPP’s strategic goals. OPP wants the goal structure to acknowledge
          OPP’s dual role as a gateway to the market for pesticide products and as a steward
          of human health and the environment. The proposed goal structure reflects this
          dual role. OPP officials have expressed this concern to the Office of the Chief
          Financial Officer in the past. The 2006-2011 EPA Strategic Architecture drafted
          by the Office of the Chief Financial Officer incorporated OPP’s proposed
          structure and strategic goals, and allows for the development and use of outcome-
          based performance measures.

          One problem with the existing goal structure is that the reregistration program
          will be ending in August 2006, turning into the registration review process, as
          outlined under FQPA. Although the registration and reregistration processes
          provide support for what OPP does, they are activities, not outcomes. OPP's
          performance measures and budget will be merged by the end of this process, and
          the proposed goal structure better allows for the merging of measures, goals, and
          budgeting.




                                                 10

Recommendations
         We recommend that the Director, Office of Pesticide Programs:

          2-1 	 Continue to move away from focusing primarily on outputs when
                examining the human health and environmental impacts of work by
                continuing the current measurement initiative.

          2-2 	 Implement the following three human health performance measures in the
                next round of strategic planning:

                    	 Reduce the number of acute poisoning incidents from pesticides in
                       and around the home.
                    	 Reduce the level of currently registered pesticides in the general
                       population.
                    	 Reduce pesticide residues in the 20 foods most commonly eaten by
                       children using Pesticide Data Program residue data.

          2-3 	 Work with other EPA program offices and other Federal agencies to
                ascertain supporting data for new measures of FQPA results.

         We recommend that the Chief Financial Officer:

          2-4 	 Revise the Goal 4 structure in the next round of strategic planning to
                create a more outcome-oriented goal structure and to acknowledge OPP’s
                dual role as a gateway to the market for pesticide products and as a
                steward of human health and the environment.

Agency Response and OIG Evaluation
         The Agency agreed with the recommendations provided in Chapter 2, and
         believes that many of our suggested measures support its current system of
         measurement. Appendix A provides the full text of the Agency’s response.




                                        11

                                Chapter 3
     Suite of Performance Measures Can Help OPP
                 Better Measure Impact

          By integrating data into a suite of performance measures, OPP can better utilize
          existing data to track the effectiveness of pesticide regulatory decisions and
          program performance. We identified several pools of quantitative data available
          for use as performance indicators. To manage FQPA performance indicators
          effectively, coordination between OPP staff, other EPA offices, and external
          entities is needed. Developing a suite of performance measures will facilitate
          such an approach.

Using a Suite of Performance Measures Can Help OPP Track Progress
          While OPP has limited in-house data on human health effects, there are numerous
          databases and data sources external to EPA that can provide information for
          developing health-based outcome measures. Integrating this data into a suite of
          performance measure can better enable OPP to measure progress.

          For example, biomonitoring data are helpful in tracking trends and extremes of
          pesticide exposure. Biomonitoring is the term given to the analysis of biological
          samples (e.g., human blood, bodily tissues and fluids, and breast milk) to identify
          the presence and levels of specific substances in the body. By comparing levels
          in one individual to normal levels in the general population, and then comparing
          them to levels recognized by the medical community to cause harm, scientists and
          public health officials are able to make more accurate and effective decisions to
          prevent illness and protect the public. However, biomonitoring data alone do not
          constitute a complete pesticide exposure risk assessment, since exposure to
          multiple pesticides from many sources rather than just one pesticide from one
          source is a routine part of life for children.

          Integrated environmental monitoring and health tracking systems that employ
          well-validated performance indicators can enable EPA officials to scan for
          potential causes or triggers of changes in trends and patterns. The following is a
          list of existing data sources from which OPP can pull integrated outcome
          performance measurement information:




                                           12

x	 The National Report on Human Exposure to Environmental Chemicals, from
   National Health and Nutrition Examination Surveys
x Pesticide residual data from the:
      o	 Pesticide Data Program managed by USDA’s Agricultural Marketing
          Service
      o	 Total Diet Study, sometimes called the Market Basket Study, by the
          Center for Food Safety and Applied Nutrition of the Food and Drug
          Administration within the Department of Health and Human Services
x The Agricultural Health Study
x Research data from the various EPA-funded Centers for Children’s
   Environmental Health and Disease Prevention Research
x Poison Control Centers Data
x Pesticides Industry Sales and Usage Data
x National Home & Garden Pesticide Use Survey

OPP is currently looking for new opportunities to gather data for non­
occupational exposures, including what can be targeted in future rounds of the
National Health and Nutrition Examination Surveys. OPP plans to target groups
of chemicals by class to provide a historical, retrospective picture of OPP impact.
In addition, OPP plans to do more collaborative work with the other EPA offices,
such as the Office of Water, to ascertain whether there is any additional data
in-house that OPP could use in developing FQPA performance indicators.

Although these data sources are available to OPP, we found little evidence to
suggest OPP mines datasets to uncover less-obvious human health effects, such as
developmental health risks or long-term diseases. Although some data from the
list above could be used as stand-alone performance indicators, others should be
grouped during analysis to uncover effects from regulatory decisions or complex
interactions requiring regulatory interventions. This grouping of measures will
provide a “suite” of measures from which OPP can garner trends and impact.
Using a suite of FQPA performance measures would demonstrate OPP
performance in mitigating children’s pesticide exposure risk and enhancing public
health from reduced risk pesticide usage.

In Table 3.1, we outline potential FQPA performance measures from existing data
sources and how these measures can be used in a suite. In the absence of ideal
end outcome measures of human health, the Agency could employ a suite of
surrogate measures. For example, dietary consumption data from the National
Health and Nutrition Examination Survey can be paired with pesticide residue
data analyzed by the USDA’s Pesticide Data Program and the Food and Drug
Administration’s Total Diet Study to determine pesticide exposures from
ingestion. Examining these measures along with information on the frequency of
foods consumed with nonviolative pesticide residues could confirm effectiveness
of OPP’s pesticide tolerance determinations.



                                 13

Table 3.1: Examples of Suites of Measures to Illustrate Children’s Pesticide Exposure Levels,
Body Burdens, and Possible Health Effects
                                                                                                      Indicators of:




                                                                                                  children’s health



                                                                                                                                       Impact of FQPA
                                                                                                                      actions on use
                                                                                                                      Impact of OPP
                                                                                                    Protection of




                                                                                                                                         on behavior
                                                                        Potential Measures
           Data                       Possible Measures                  (No National Data
          Sources                    (Using Existing Data)                currently exists)
 Pesticide Residual Data      x Dietary risk trends from             x Meta measures: Food                                
 from Agricultural                 domestic vs. imported foods.        and water consumption
 Marketing Service,           x    Pesticide exposure risk from        data linked to pesticide
 USDA’s Pesticide                  drinking water and water            residue analysis and
 Data Program                      treatment processes.                violations.
                              x    Effects of regulatory decisions
                                   in mitigating risk sources.
                              x    Risk-drivers from chemical
                                   trading or substitutions.
 Dietary: Total Diet Study    x    Compliance with tolerances.
 & Food Market Basket
 Surveys
 National Health and          x Measure of contaminants and          Pesticides and their                                            
 Nutrition Examination             body burdens.                     metabolite levels in
 Survey                       x    Pesticide residue levels in        x Human umbilical cord
                                   drinking water quality.              blood.
                              x    Residential dust/ambient           x Birth outcome (weight
                                   exposures.                           and length).
                              x    Dietary consumption                x Paraoxonase 1 (PON1)
                                   information matched with             activity.
                                   biomarker and pesticide            x Human breast milk.
                                   residue information.
 Poison Control Centers        x   Acute illnesses associated        x Schools and municipal                                          
 Data                              with pesticide exposures at         parks participating in
                                   schools and municipal parks.        Integrated Pest
                                                                       Management programs.
 Farm Family Pesticide        x Health effects among farmers’        x Spray drift and acreage                                       
 Exposure Data: Farm            wives at reproductive age.             treatment data.
 Family Pesticide             x Birth weights, birth defects,        x Birth outcome data.
 Exposure Study and             and asthma/chronic                   x Asthma data.
 Studies in the                 respiratory diseases among
 Agricultural Health            farmers’ children.
 Study
 Pesticides Industry          x Risk-drivers from chemical          x Market share of reduced                         
 Sales and Usage Data            trading or substitutions.            risk pesticides.
                              x Economic profile/regulatory
                                 impacts on industry.
 National Home &              x Trends from self-reported          x Self reported residential                                        
 Garden Pesticide Use            home and garden pesticide            usage data.
 Survey                          use data
                              x Trends in residential usage,
                                 reduced risk pesticide sales,
                                 and acute poisoning data.
OIG staff developed figure based on data collected during evaluation.




                                                           14
Five Examples Demonstrate Use of Suite Approach
                 The following five examples show how a suite of performance measures using
                 external sources could help OPP track regulatory progress and demonstrate
                 effectiveness of FQPA-relevant decisions. Each example focuses on observable,
                 quantifiable exposure and offers a long-term strategic picture of the gap between
                 regulatory actions and outcomes of children’s health. Collectively, they offer
                 broad measures of the effectiveness of the pesticide programs’ aggregate effects
                 on children’s health. In addition, some of these examples focus on the type of
                 developmental and exposure data that may be necessary for future pesticide
                 registrations.

                 Example 1: Research results reported by the Centers for Children’s
                 Environmental Health and Disease Prevention Research3 illustrate the importance
                 of using a suite of measures to highlight regulatory pesticide exposure risk
                 mitigation efforts by EPA. Three recent studies4 appearing in the journal
                 Environmental Health Perspectives examined the relationship between pregnant
                 women’s exposures to selected pesticides and birth outcomes. Participants in
                 each study were likely exposed to many classes of pesticides as well as other
                 environmental chemicals, but the focus of these studies was on organophosphorus
                 pesticides.

                 Example 2: One major advantage of using biomarker data from the National
                 Health and Nutrition Examination Survey is that the data provide an ongoing
                 assessment of the U.S. population's exposure to environmental chemicals using
                 biomonitoring. Centers for Disease Control and Prevention scientists measure
                 chemicals or their metabolites (breakdown products) in blood and urine samples
                 from selected participants in each survey, and the chemical analysis of
                 environmental monitoring samples collected during each survey. Analytical
                 results are published in the National Reports on Human Exposure to
                 Environmental Chemicals. Human exposure data from the survey would allow
                 EPA officials to track children’s body burden trends and determine whether past
                 and current regulatory actions are effective in reducing or mitigating pesticide
                 exposure risks for children and women of childbearing age.

                 Example 3: In Chapter 4, we noted the use of an empirical approach to examine
                 and document OPP’s performance in mitigating dietary pesticide exposure risks
                 for children from domestic foods that they consume frequently. If OPP carries
                 our analysis one step further, it could track actual consumption risks by
3
  Funded by EPA in partnership with the National Institute of Environmental Health Sciences and the Centers for 

Disease Control and Prevention. 

4
  Berkowitz, Gertrud S et al. In Utero Pesticide Exposure, Maternal Paraoxonase Activity, and Head Circumference. 

Environmental Health Perspectives 112:388-391, 2004. Eskenazi, Brenda et al. Association of in Utero 

Organophopshate Pesticide Exposure and Fetal Growth and Length of Gestation in an Agricultural Population.

Environmental Health Perspectives 112:116-1124, 2004. Whyatt, Robin M et al. Prenatal Insecticide Exposures 

and Birth Weight and length among an Urban Minority Cohort. Environmental Health Perspectives 112:1125-1132,

2004. 



                                                       15

         integrating food and water pesticide residue measures from USDA’s Pesticide
         Data Program with the National Health and Nutrition Evaluation Survey data on
         children’s actual food consumption amounts and urinary biomonitoring.

         Example 4: External stakeholders continue to express concern over the health of
         farm workers and their families from pesticide exposures. Two pools of data are
         available to EPA for using real-world pesticide exposure information on farmers
         and their families to track progress in pesticide exposure risk management: the
         Farm Family Pesticide Exposure Study and the substudies of Agricultural Health
         Study. Such studies are epidemiological-based and use health outcomes, along
         with biomonitoring of pesticides in urine, to quantify the exposure of
         farmers/applicators and their families. Also, the Centers for Children’s
         Environmental Health and Disease Prevention Research conduct research on farm
         families and their children.

         Example 5: EPA collects information about pesticide poisonings by a variety of
         mechanisms. In 2004, approximately 70,000 children were accidentally exposed
         to or poisoned by pesticides. OPP has used Poison Control Centers' data to show
         information on how EPA is improving protection from acute adverse effects of
         pesticide exposure. OPP receives mandated reports of adverse effects from
         manufacturers, and periodically reviews both the Toxic Exposure Surveillance
         System data maintained by the American Association of Poison Control Centers
         and aggregated data from State-based surveillance programs. A 2005 study was
         published in the Journal of the American Medical Association that illustrated the
         importance of tracking risks of pesticide use in and around the nation’s schools.
         We believe EPA can further analyze available data from State and toxic exposure
         surveillance systems to extract pertinent pesticide poisonings trends in schools
         and childcare centers.

Recommendation
         We recommend that the Director, Office of Pesticide Programs:

         3-1	   Evaluate the use of suites of performance measures to more
                comprehensively assess OPP’s FQPA implementation performance and
                impacts on children’s health.

Agency Response and OIG Evaluation
         The Agency agreed in general with the recommendation provided in Chapter 3.
         OPP noted that measures are only as good as the data upon which they are based,
         and have concerns that such data do not exist for some of our recommended
         measures. OPP additionally stated that it will consider the measures provided and
         further evaluate the recommendation as they make progress in implementing
         FQPA performance measures. Appendix A provides the full text of the Agency’s
         response.


                                         16

                                                                Chapter 4
    OPP Decisions on Pesticide Dietary Exposure Risk
                  Had Positive Impact

                  OPP has not yet stated the impact of its performance under FQPA on children’s
                  health. As discussed in Chapter 2, this occurred because OPP did not have
                  adequate measures. To get a general idea on the impact of OPP’s actions on
                  children’s health based on the FQPA, we examined pesticide dietary risk. Dietary
                  risk is based on both the exposure to a pesticide and the pesticide’s toxicity. We
                  conducted an analysis of the dietary pesticide residue data from USDA’s Pesticide
                  Data Program and found that EPA’s regulatory actions had a significant impact in
                  reducing pesticide exposure risk. Risks associated with 16 foods commonly eaten
                  by children declined almost 50 percent. However, while we noted positive
                  changes for domestic foods, there has been a shift of risk to imported foods.

FQPA Actions Decreased Dietary Pesticide Risks to Children
                  Using USDA’s Pesticide Data Program data, we found that risks associated with
                  16 foods commonly eaten by children declined by almost 50 percent.
                  Specifically, as illustrated in Figure 4.1, the total dietary risk index amount
                  (domestic and imported combined) decreased from 3,170 in 1994 to 1,532 in
                  2003.5

                  Figure 4.1: Total Dietary Risk Index Scores for Selected Children’s Foods6

                                                                Total Dietary Risk Index- Combined


                                                         3500
                              Total Dietary Risk Index




                                                         3000
                                                         2500
                                                         2000
                                                         1500
                                                         1000
                                                         500
                                                           0
                                                              94

                                                              95

                                                              96

                                                              97

                                                              98

                                                              99

                                                              00

                                                              01

                                                              02

                                                              03
                                                           19

                                                           19

                                                           19

                                                           19

                                                           19

                                                           19

                                                           20

                                                           20

                                                           20

                                                           20




                                                                                  Year




5
 2003 is currently the last year for which data is available through USDA’s Pesticide Data Program. 

6
 Certain years included in our sample lacked data. For these years, the trend data and data points are extrapolated. 

Details on dietary risk index values for selected foods are in the supplemental report. 



                                                                            17

                  To evaluate the impact of the FQPA on dietary pesticide exposure risk for
                  children, we analyzed data on food intake and exposure to food pesticide residues.
                  The methodology we developed is discussed in our supplemental report. The
                  Dietary Risk Index is a basic unit of measure the OIG team used to track pesticide
                  dietary risks for food commonly consumed by children. Our index values are
                  based on risk assessment methods and publicly available toxicological data
                  supporting EPA dietary risk assessment.

                  We found risks have declined by about two-thirds in domestically grown foods in
                  16 important children’s foods7 included in our analysis. Figure 4.2 illustrates that
                  between 1996 (when FQPA was implemented) and 2003, the average Dietary
                  Risk Index values across the 16 domestically produced foods declined from
                  175 to 65, or about 63 percent.

                  Figure 4.2: Average Total Dietary Risk Index Values for Selected Foods




                                                400
                                                              Domestic                   Import                 Combined
                                                350
                           Average DRI Values




                                                300

                                                250

                                                200

                                                150

                                                100

                                                50

                                                 0
                                                      1994   1995   1996   1997   1998   1999     2000   2001   2002   2003

                                                                                         Years



                  A similar analysis was conducted on pesticide residues in imported samples.
                  Although there was a decline in the total imported food dietary risk index, the
                  decline was not nearly as significant as it was for domestic foods. On a serving-
                  compared-to-serving basis, dietary risks in 1996 were roughly comparable for
                  imported and domestic foods. By 2003, however, total pesticide residual risk for
                  imported foods were nearly four-times higher than those of the domestic scores
                  (see Figure 4.3).8 Breakdowns for specific domestic and imported food
                  commodities are in the supplemental report.

7
  Apple juice, apples, broccoli, cantaloupe, carrots, celery, cucumbers, grapes, green beans, lettuce, oranges,
peaches, potatoes, spinach, sweet bell peppers, and tomatoes. These foods were selected based on the amount of
data points in the Pesticide Data Program database, and the frequency with which they are consumed by children.
8
  The word “total” in our analysis refers to the “total” summed values of the risks we assessed using the Pesticide
Data Program data. It is important to note that USDA’s sampling is limited. Therefore, “total” does not reflect all
foods, but simply the sum of the risk from our analysis and USDA’s sampling.


                                                                            18

                 Figure 4.3: Comparisons of Total Pesticide Dietary Exposure Risks in Domestic
                 and Imported Foods




                                               2000                           Domestic      Import



                            Total DRI Values
                                               1600

                                               1200
                                                      1599   1797
                                               800
                                                                                         1219
                                               400
                                                                                 327
                                                 0
                                                         1996                        2003

                                                                      Years




Reduced Risk Attributable to Two Major EPA Actions

                 FQPA required EPA to evaluate all pesticides specifically to assess their potential
                 damage to the health of infants and children based on complete and reliable data
                 on exposure and the pesticide’s toxicity. As part of EPA’s ongoing FQPA
                 implementation, EPA began conducting individual assessments of
                 organophosphate pesticides.9 As a result of this review for two specific
                 organophosphate pesticides, EPA canceled the use of methyl parathion on all
                 fruits and many vegetables and eliminated the manufacturing of chlorpyrifos for
                 nearly all residential uses. According to Agency documents, regulatory actions
                 on individual organophosphate pesticides during the past few years have
                 substantially reduced the risks of these pesticides. Details follow.

                          Methyl Parathion is one of the most toxic organophosphate pesticides.

                          It can over stimulate the nervous system, causing nausea, dizziness, 

                          confusion, and – at high exposures – respiratory paralysis and death.

                          EPA's risk assessment showed that methyl parathion posed an 

                          unacceptable risk to infants and children. To mitigate the high dietary risk 

                          to children, EPA accepted voluntary cancellation of the use of this 

                          pesticide on those crops that contribute most to children's diets. These 

                          canceled uses represented 90 percent of the dietary risk to children, 

                          dramatically reducing the estimated dietary risk and thus making the risk 

                          acceptable for children and all others in the U.S. population. 




9
  Organophosphates are a high priority group of chemicals with a common mechanism of toxicity that affects the
nervous system, and requires a cumulative risk assessment. They can pose known risks of acute and chronic toxicity
to humans and wildlife. They are widely used on many food crops, and in residential and commercial settings.


                                                                19

                         Chlorpyrifos was one of the most widely-used insecticides in the United
                         States, and was commonly found in many home-and-garden insecticides.
                         Additionally, it was used in some termite treatments and on agricultural
                         crops. In June 2000, EPA released a revised risk assessment and
                         announced an agreement with registrants to phase out and eliminate
                         certain uses of chlorpyrifos. This action eliminated home, lawn, and
                         garden uses by the end of the 2000, as well as all termite-control uses in
                         existing homes and for new home-and-building construction by the end of
                         2004. Additionally, the use of chlorpyrifos for all sensitive areas, such as
                         schools, day cares, parks, hospitals, nursing homes and malls, were
                         eliminated by the end of the 2000. EPA also canceled the use of
                         chlorpyrifos on tomatoes and restricted the use on apples.

Looking at Pesticide Data Program data, we found a single pesticide like
chlorpyrifos accounted for 70 percent or more of total dietary risk contributions in
apples grown in the United States between 1999 through 2002. As Figure 4.4
illustrates, risk associated with chlorpyrifos on apples has declined dramatically.


Figure 4.4: Changes on Dietary Exposure Risk from Chlorpyrifos for Apples


                                                 Chlorpyrifos
                         160
  DRI / Domestic Apple




                         140
                         120
                         100
                          80
                          60
                          40
                          20
                           0
                                   1999             2000            2001             2002
                                                            Year




Table 4.1 illustrates that the contribution of chlorpyrifos to total dietary pesticide
risk decreased to only 8 percent in domestically grown apples, with the remaining
risk coming from newer, lower-risk pesticides.




                                                  20

         Table 4.1: Chlorpyrifos as a Single-Risk Driver in Domestically Grown Apples

                               Total Pesticides          Dietary Exposure Risk
                            Dietary Exposure Risk         Chlorpyrifos/Apple        % of
              Year                in Apples                   Combination           Total
                                     (Dietary Risk Index Values)
              1999                  180.2                          140.2            78%
              2000                  144.3                          112.0            78%
              2001                  144.1                          105.2            73%
              2002                    43.7                          3.6                 8%



         In Table 4.2, we show that EPA’s August 1999 regulatory actions against the
         parathions resulted in a drop of about 83 percent of the total impact in domestic
         foods triggered. Changes in chlorpyrifos tolerances reduced total Dietary Risk
         Index values by another 241 points. Taken together, tolerance revocations and
         reductions imposed on 8 uses of the parathions and chlorpyrifos accounted for
         98 percent of the total impact of EPA actions to date on a set of 30 of the most
         serious domestic “risk drivers.” Risk drivers are high risk pesticide-food
         combinations accounting for the majority of summed pesticide dietary exposure
         risk. Details are in the supplemental report.


         Table 4.2: EPA Regulatory Actions Decrease Dietary Pesticide Exposure Risks

                                  Aggregate Dietary Risk Index/
             Pesticide              Year before EPA Action                 % Reduction
                                   (For Domestic Food Samples)
          Parathions                            1,369                            83%

          Chlorpyrifos                           241                             15%

           Total                                1,610                            98%




Method Could Help OPP
         The Dietary Risk Index described in this chapter is one method for OPP to
         consider in assessing the impact of its performance. This index could be used in
         combination with the proposed measures and suites of measures recommended in
         Chapters 2 and 3. We recognize that there are limitations, including cost and data
         collection constraints, to OPP’s use of this methodology. Nonetheless, we believe
         it is important for OPP to take action to improve its ability to document impacts
         of the FQPA on dietary risk levels for foods that contribute significantly to the
         diets of infants and children.




                                          21

Recommendation
         We recommend that the Director, Office of Pesticide Programs:

         4-1	   Develop a cost-effective and scientifically defensible method to assess its
                performance in decreasing dietary pesticide exposure risks to children
                from its tolerance assessments and reassessments.

Agency Response and OIG Evaluation

         The Agency agreed in general with the recommendation provided in Chapter 4.
         OPP noted that under the Federal Food, Drug, and Cosmetic Act, it has regulatory
         authority to reduce a tolerance only if dietary exposure risks do not meet the
         “reasonable certainty of no harm” standard established by FQPA. However, OPP
         also stated that an exposure-based measure utilizing USDA’s Pesticide Data
         Program data offers the best alternative at this time, and that it is always
         interested in exploring ways to measure the human health and environmental
         impacts of our work based upon risk-based measurements.

         Appendix A provides the full text of the Agency’s response.




                                         22

                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                                        POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                     BENEFITS (in $000s)2

                                                                                                                    Planned
     Rec.    Page                                                                                                  Completion            Claimed       Agreed To
     No.      No.                          Subject                         Status1         Action Official           Date3               Amount         Amount

     2-1       11    Continue to move away from focusing primarily on         O           Director, Office of          TBD
                     outputs when examining the human health and                         Pesticide Programs
                     environmental impacts of work by continuing the
                     current measurement initiative

     2-2       11    Implement the following three human health               O           Director, Office of          TBD
                     performance measures in the next round of                           Pesticide Programs
                     strategic planning:
                        x Reduce the number of acute poisoning
                          incidents from pesticides in and around the
                          home
                        x Reduce the level of currently registered
                          pesticides in the general population
                        x Reduce pesticide residues in the 20 foods
                          most commonly eaten by children using
                          Pesticide Data Program residue data

     2-3       11    Work with other EPA program offices and other            O           Director, Office of          TBD
                     Federal agencies to ascertain supporting data for                   Pesticide Programs
                     new measures of FQPA results

     2-4       11    Revise the Goal 4 structure in the next round of         O      The Chief Financial Officer       TBD
                     strategic planning to create a more outcome-
                     oriented goal structure and to acknowledge OPP’s
                     dual role as a gateway to the market for pesticide
                     products and as a steward of human health and the
                     environment

     3-1       16 	 Evaluate the use of suites of performance                 O           Director, Office of          TBD
                    measures to more comprehensively assess OPP’s                        Pesticide Programs
                    FQPA implementation performance and impacts on
                    children’s health

     4-1       22 	 Develop a cost-effective and scientifically               O           Director, Office of          TBD
                    defensible method to assess its performance in                       Pesticide Programs
                    decreasing dietary pesticide exposure risks to
                    children from its tolerance assessments and
                    reassessments


1	    O = recommendation is open with agreed-to corrective actions pending;
      C = recommendation is closed with all agreed-to actions completed;
      U = recommendation is undecided with resolution efforts in progress
2	    Identification of potential monetary benefits was not an objective of this evaluation.
3	    In accordance with EPA Manual 2750, the Agency is required to provide a written response to this report within 90 calendar days that will include a
      corrective actions plan for agreed upon actions, including milestone dates.




                                                                                  23

                                                                                   Appendix A

                                Agency Response

MEMORANDUM

SUBJECT:              OPP's Comments on the OIG's Draft Evaluation Report
                      “Measuring the Impact of the Food Quality Protection Act: Challenges
                      and Opportunities” (Assignment No. 2005-001034)

FROM:                 Jim Jones, Director
                      Office of Pesticide Programs

TO:                   Jeffrey K. Harris, Director for Program Evaluation, Cross Media
                      Office of Inspector General

This memorandum is in response to the recommendations made by the Agency's Office of
Inspector General (OIG) in its April 13, 2006, report evaluating EPA's implementation of the
Food Quality Protection Act (FQPA). The report, the final in a series of three planned reports,
comments on OPP’s ongoing work to develop better performance accountability measures.

The EPA's OIG report, “Measuring the Impact of the Food Quality Protection Act: Challenges
and Opportunities,” focuses upon the following issues:

   x	 What are the strengths and weaknesses of OPP's current measurement system in tracking
      FQPA objectives, and how could it be improved, if necessary?

   x	 What impact did FQPA have on mitigating dietary pesticide exposure risk and on
      children's health?

Our response is organized as follows: The first section summarizes our responses to the OIG’s
specific recommendations. The second section contains more detailed comments on the text of
the report.




                                               24

  1. OPP's Responses to the OIG’s Recommendations

OIG Recommendations

Chapter 2 - “Improvements Needed in OPP's Measurement System.”

OIG Recommendation 2-1: Continue to move away from focusing primarily on outputs when
examining the human health and environmental impacts of work by continuing the current
measurement initiative.

OPP Response: OPP agrees with this recommendation. OPP agrees that our performance
measures in the past have primarily been output measures. Although we recognize that there will
always be a need to track such outputs, we are striving to develop more direct and effective ways
to assess the human health and environmental impacts of our decisions.

OPP recently conducted a multi-year effort with extensive stakeholder input to develop a
comprehensive suite of outcome performance accountability measures. The final product of this
effort will be the establishment of a comprehensive and consistent set of realistic, meaningful,
and supportable outcome performance measures, and steps to ingrain those measures in the
program’s activities. OPP is working to include these new measures in EPA’s strategic plan, and
to begin implementation of measures and collection of baseline data.

OIG Recommendation 2-2: Implement the following three human health performance
measures in the next round of strategic planning:

   x	 reduce the number of acute poisoning incidents from pesticides in and around the home;
   x	 reduce the level of currently registered pesticides in the general population; and
   x	 reduce pesticide residues in the 20 foods most commonly eaten by children using 

      Pesticide Data Program residue data. 


OPP Response: OPP agrees with this recommendation.

The recommended measures comport with the measures OPP is recommending for the Agency’s
draft strategic plan. However, with regard to the first measure (to reduce incidents in and around
the home) OPP’s interest is in reducing all incidents – both human and environmental – from all
pesticide uses, not just those in and around homes.

OIG Recommendation 2-3: Work with other EPA program offices and other Federal Agencies
to ascertain supporting data for new measures of FQPA results.

OPP Response: OPP agrees with this recommendation. For many years, OPP has worked
extensively with other program offices within EPA, as well as other Federal (e.g., USDA,
DHHS/CDC) and state agencies, to use the results of their studies and data collection as
indicators in measuring results of FQPA implementation. EPA plans to continue such
collaboration.



                                                25

OIG Recommendation 2-4:
We recommend that the Director, Office of the Chief Financial Officer:

Revise the Goal 4 structure in the next round of strategic planning to create a more outcome-

oriented goal structure and to acknowledge OPP's dual role as a gateway to the market for 

pesticide products and as a steward of human health and the environment. 


OPP Response: OPP is in discussion with the Office of the Chief Financial Officer regarding 

our dual role as gateway to the market and steward of human health and the environment as it 

relates to Goal 4. 


Chapter 3 - “Suite of Performance Measures Can Help OPP Better Measure Impact.”

OIG Recommendation 3-1: Evaluate the use of suites of performance measures to more
comprehensively assess OPP's FQPA implementation performance and impacts on
children's health.

OPP Response: OPP appreciates OIG’s suggestions for developing a proposed suite of
measures. The list of potential performance measures and examples given in Table 3.1 presents
thoughtful examples of approaches using different data sources to measure the impacts of FQPA
implementation. OPP has had a history of using information from listed and other data sources
to make more informed science and regulatory decisions. OPP has also given significant
consideration to using these data sources to formulate meaningful measures but has recognized
that data sources often have limitations (e.g., quality, quantity or focus of data) which may affect
our use of those data for valid and desirable measurements. OPP provides further discussion on
this issue below under Technical Comments.

OPP generally supports the concept of using a suite of measures to evaluate impacts. However,
measures are only as good as the data upon which they are based. In general, the data need to be:
1) of high quality, statistically representative of the population and directly related to the
measure; 2) collected over a time frame sufficient to show trends; and 3) collected in a consistent
manner to permit meaningful comparisons across different collection intervals. For the most part,
such data sources are very limited. The exceptions appear to be PDP and FDA compliance data;
Poison Control Center (PCC) data; NHANES data; and possibly pesticide sales and usage data.

A group of similar data can be pooled to provide a “snap-shot” of the impact of OPP’s actions
upon public health. While a snap-shot of data cannot be used to provide information on trends, it
can be used for identifying potential new measures.

Again, OPP appreciates OIG’s thoughtful development of a proposed suite of measures, and will
consider them and further evaluate the recommendation as we make progress in implementing
FQPA performance measures. We welcome new ideas and studies for finding appropriate
measures of our performance.




                                                 26

Chapter 4 – OPP Decisions on Pesticide Dietary Exposure Risk Had Positive Impact

OIG Recommendation 4-1: Develop a cost-effective and scientifically defensible method to
assess its performance in decreasing dietary pesticide exposure risks to children from its
tolerance assessments and reassessments.

OPP Response: OPP generally agrees with this recommendation. It should be noted that under
FFDCA, OPP has regulatory authority to reduce a tolerance only if dietary exposure risks do not
meet the “reasonable certainty of no harm” standard established by FQPA.

OPP believes that an exposure-based measure utilizing USDA’s PDP data offers a good data
source for dietary exposures. In addition, OPP is always interested in exploring ways to measure
the human health and environmental impacts of our risk based upon risk-based decisions.

  1. Technical comments

Page 7: “Although EPA has volumes of data on individual pesticides, OPP is often
prohibited from using it due to confidential business information conflicts.”
OPP believes this sentence requires correction. The real issue is not that we are “prohibited”
from using confidential business information, but that we are prohibited from releasing CBI
without the owner’s permission due to statutory restrictions on the disclosure of CBI. In
addition, OPP may release reports with the CBI information redacted. In any case, the CBI
material is used in decision making, but ordinarily cannot be made publicly available due to
statutory restrictions on the disclosure of CBI. Further, this sentence is misleading because it
ignores the fact that safety data on registered or previously registered pesticides are explicitly
excluded from CBI protection. 21 USC 136h(d)(1).

Page 9, Figure 2.2:
OPP appreciates OIG’s work and thoughtfulness in developing the “Logic Model on FQPA
Implementation and Children’s Pesticide Exposure Health Risk Mitigation” Figure 2.2. OPP
does have an exposure measure for the foods most commonly consumed by infants and children
that we have been working to refine. However, OPP agrees that logic modeling can be a useful
tool in measures development, and we like the concept of a broader children’s health measure.
Generally, OPP will consider the OIG’s children’s exposure/risk logic model as we continue to
refine measures of human health and environmental impacts of our work.

OPP has a few additional comments on the suggested logic model. Specifically, the OIG could
have included many other critical resources, such as other Federal agencies (USDA for PDP,
FDA for tolerance monitoring, CDC for NHANES), state lead agencies who have been
supportive of our measurement effort, industry, public interest groups, and other offices within
EPA, such as the Office of Water. Another key resource, especially in the area of reducing
exposure to pesticides, and mitigation of exposure risks, is OPP’s outreach and communication
activities to educate the public. OPP’s outreach and communication efforts should be included
under the heading of “activities.”




                                                 27

Page 12:
The leading sentence of the second paragraph states “While OPP has limited in-house data on the
health effects of pesticides…” implies our data base on human health effects from pesticides is
moderate to inadequate and therefore understates the scope and breadth of information OPP
actually has and uses to characterize potential human health effects from pesticides. This also
discounts OPP’s use of published studies. OPP recommends omitting the word “limited.”

Page 12/13:
OPP agrees that several of the studies referenced in this section contain data useful for measuring
the impacts of EPA’s pesticide regulatory program. For example, OPP intends to develop
measures based on the NHANES and PDP data. Data from other sources, while informative,
cannot be used to form the basis of a measure for tracking OPP’s impact because they do not
collect data over different time periods that may be statistically analyzed to show changes and
trends (e.g., National Home and Garden Use Study.)

Page 14, Table 3.1:
For the data source “Family Farm Pesticide Exposure Data…” In order to have an indicator of
the “Impact of FQPA on Behavior” there should be a commensurate “Impact of OPP Actions on
Use.” Therefore, all three boxes should be checked in this row.

Page 15, Example 1:
Note: The three studies cited are of interest for identifying a snap-shot of success or a potential
problem area. However, because they are one-time studies, they are not useful as a measure of
long-term success. In addition, it is important to note that these studies do not provide data
demonstrating causation or information about trends, which are particularly important for
tracking progress that may be used as a meaningful measurement.

Page 15, Example 2:
OPP is currently developing an NHANES measure and we are amenable to examining whether
or not the National Report on Human Exposure to Environmental Chemicals may be useful for
such a measure.

Page 15, Example 3:
OPP has a measure using PDP data and is developing a measure using CDC’s NHANES data.
OPP is interested in developing a more accurate and reliable measure using these data. We are
also interested in moving from exposure measures to risk-based measurement. To date, all risk
measures considered would require direct comparisons of different health effects.

Page 15, Example 4:
OPP supports the creation of a farm health measure and we are aware of the studies referenced in 

this example. However, we are unaware of data sources that are regularly collected and 

statistically robust to provide accurate and meaningful measures. 


Page 15, Example 5:

As data that are regularly collected, PCC data can provide a basis for a long-term measure. 

However, the PCC data has some significant limitations; most notably the number of incidents 




                                                 28

appears to fluctuate with funding levels of PCC’s across the country. If there is less funding,
there will be fewer poison control centers, with shorter hours and less data compilation. On a
limited basis, other data can be used to augment these data.

Chapter 4, pages 17-22:
OPP believes that it has positively affected the health of children through its implementation of
FQPA. We agree that the two specific decisions mentioned were among many that contributed
to the improvement of children’s health. We are also eager to develop and use a measure that
could show how our regulatory programs are affecting public health. Despite considerable
effort, OPP has been unable to develop a scientifically sound measure that uses available data
and can be implemented efficiently. At present, the most scientifically defensible approach for
assessing changes in risk appears to be repetition of the kinds of dietary risk assessments for
pesticides that OPP has conducted during the tolerance reassessment program. The repeat risk
assessments would need to use updated PDP or FDA residue data that were collected after EPA
had taken regulatory actions affecting pesticide use. At present, such an effort appears
impractical given OPP’s resource levels and its statutory mandates.

OPP is in agreement that a scientifically sound, risk-based measure would provide a more
accurate and effective indicator than an exposure measure, and is conceptually preferable. Once
a draft measure is developed, it should undergo external scientific peer review and public
comment.

OPP questions the validity of the OIG risk measure used to draw the conclusions in this chapter
and the Supplemental Report. One of OPP’s fundamental concerns with the “risk index”
developed by OIG is that it makes no distinction among the potential adverse effects prevented
by OPP’s actions. For example, this approach could actually give a higher weight to a quickly
reversible skin irritation than to a severe birth defect. OPP believes there would be value to a
more in-depth review of the index and plans to schedule a meeting for our scientists to talk with
the creators of the proposed index.

Page 21:
The sentence: “We recognize that there are limitations to OPP’s use of this methodology”
should be clarified to explain the limitations.

Supplemental Report: Details on Dietary Risk Data:
OPP appreciates OIG’s time and effort in developing the proposed measures in the supplemental
report. We will consider these suggestions as we continue with development of meaningful
measures.




                                                29

                                                                                       Appendix B

         OPP’s Proposed Goal-Related Measures
  ID #                       Measure                                          Goal
Human Health
  HH1     Reduce the concentration of specific              Provide aggregate picture of
          pesticides detected in the general population     effectiveness of OPP actions on
          by 50% by 2011                                    U.S. population
  HH2     Measure concentration in drinking water and       Show impact of regulations and
          raw water over time as a result of mitigation     mitigation on pesticides in drinking
                                                            water over time
  HH3     Reduce pesticide residues in 20 foods most        Show how combined efforts within OPP
          commonly eaten by children using Pesticide        have reduced pesticide exposure to
          Data Program residue data                         children
  HH4     Ensure efficacious public health antimicrobial    Assure that antimicrobial products
          products in the marketplace                       registered and on market efficacious
  HH5     Reduce number of acute poisoning incidents        Capture reductions in number of
          from pesticides in and around the home            adverse effects associated with
                                                            residential exposure
Worker Safety
  WS1     Survey of agricultural workers’ awareness of      Increase awareness of agricultural
          Worker Protection Standard provisions             worker protection provisions for
                                                            agricultural employees
  WS2     Increase in percent-change in Worker              Have all employers in compliance with
          Protection Standard planned use compliance        Worker Protection Standard
          ratio over time (# establishments in
          compliance with Worker Protection Standard/
          # inspections)
  WS3     Percent-change in number of Worker                Have agricultural employers and
          Protection Standard violations for each           employees use knowledge and skills to
          category over time (# Worker Protection           reduce pesticide risk in workplace
          Standard violations/# inspections)
  WS4     Protect those occupationally exposed to           Improve health of occupational
          pesticides by improving or sustaining the         pesticide workers
          extremely low rate of 3.5 or less incidents per
          100,000 potential risk events.
  WS5     Reduce number of certified applicators with       Change behavior of certified applicators
          repeated enforcement violations                   out of compliance with pesticide laws
                                                            and label directions
  WS6     Improve the health of those who work in or        Improve health of occupational
          around pesticides by reaching a 50% targeted      pesticide workers
          reduction in moderate to severe incidents for
          six acutely toxic agricultural pesticides with
          the highest incident rate.




                                               30

                                                                                Appendix C

                                     Distribution

Office of the Administrator
Assistant Administrator for Prevention, Pesticides, and Toxic Substances
Assistant Administrator for Research and Development
Chief Financial Officer
Director, Office of Pesticide Programs
Acting Director, Office of Children’s Health Protection
Associate Director, Field and External Affairs, Office of Pesticide Programs
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Prevention, Pesticides, and Toxic Substances
Audit Followup Coordinator, Office of Research and Development
Audit Liaison, Office of Pesticide Programs
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                              31

